<html>
<title> - LEBANON'S SECURITY CHALLENGES AND U.S. INTERESTS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                   LEBANON'S SECURITY CHALLENGES AND 
                             U.S. INTERESTS 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 8, 2014

                               __________

                           Serial No. 113-133

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------

                         U.S. GOVERNMENT PRINTING OFFICE 

87-514 PDF                       WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman

CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California           Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania              Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
DOUG COLLINS, Georgia                GRACE MENG, New York
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
TED S. YOHO, Florida                 TULSI GABBARD, Hawaii
LUKE MESSER, Indiana                 JOAQUIN CASTRO, Texas


     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director

                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman

STEVE CHABOT, Ohio                 THEODORE E. DEUTCH, Florida
JOE WILSON, South Carolina         GERALD E. CONNOLLY, Virginia
ADAM KINZINGER, Illinois           BRIAN HIGGINS, New York
TOM COTTON, Arkansas               DAVID CICILLINE, Rhode Island
RANDY K. WEBER SR., Texas          ALAN GRAYSON, Florida
RON DeSANTIS, Florida              JUAN VARGAS, California
DOUG COLLINS, Georgia              BRADLEY S. SCHNEIDER, Illinois
MARK MEADOWS, North Carolina       JOSEPH P. KENNEDY III, Massachusetts
TED S. YOHO, Florida               GRACE MENG, New York
LUKE MESSER, Indiana               LOIS FRANKEL, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Lawrence Silverman, Deputy Assistant Secretary, Bureau of 
  Near Eastern Affairs, U.S. Department of State.................     6
Matthew Spence, Ph.D., Deputy Assistant Secretary of Defense for 
  Middle East Policy, U.S. Department of Defense.................    20

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Lawrence Silverman: Prepared statement.......................     9
Matthew Spence, Ph.D.: Prepared statement........................    23

                                APPENDIX

Hearing notice...................................................    54
Hearing minutes..................................................    55


                   LEBANON'S SECURITY CHALLENGES AND 
                             U.S. INTERESTS

                              ----------                              


                         TUESDAY, APRIL 8, 2014

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. Well, thank you very much. The 
subcommittee will come to order.
    Afer recognizing myself and Ranking Member Ted Deutch for 5 
minutes each for our opening statements, I will then recognize 
other members seeking recognition for 1 minute. We will then 
hear from our witnesses and without objection the witnesses' 
prepared statements will be made a part of the record and 
members may have 5 days to insert questions and statements for 
the record subject to the length limitations in the rules.
    And there are several committees that are meeting at the 
same time including where Attorney General Holder is testifying 
so we are bouncing back and forth from committee. So we 
apologize if it seems to be sparsely attended. They will come 
back and forth.
    The chair now recognizes herself for 5 minutes. Lebanon is 
a country that is seemingly perpetually in a state of conflict 
or on the verge of breaking out into conflict at any moment.
    A bloody and protracted civil war ravaged the country over 
25 years ago and Lebanon has never really been quite able to 
fully recover. One of the by-products of the Lebanese civil war 
was the emergence of Hezbollah in the early 1980s.
    Long associated with the Ba'ath Party in Syria led by 
Bashar al-Assad and his father before him and backed by the 
Iranian regime, Hezbollah has received its financial and 
military support from Tehran while allying itself politically 
with Damascus.
    Hezbollah is a U.S. designated terrorist organization and 
has been responsible for conducting many acts of violence that 
have left hundreds of innocent U.S. and Israeli citizens dead.
    It has long waged a war against our closest friend and 
ally, the democratic Jewish State of Israel, most notably 
setting off the 2006 conflict when it conducted a cross border 
raid in Israel, kidnapping and killing Israeli soldiers.
    This led to a 34-day-long campaign in which Hezbollah fired 
thousands of rockets indiscriminately into Israel, prompting an 
Israeli military response that finally ended in a cease fire. 
Now we see Hezbollah responsible for much of the bloodshed in 
Syria and it has brought that conflict across the border into 
Lebanon and with it other terrorist groups like al-Qaeda-linked 
Islamic State of Iraq and the Levant, ISIL.
    This is not just a threat for Lebanon. This increased 
violence threatens to destabilize the entire region, 
threatening U.S. national interests and our democratic partner, 
Israel.
    In recent months, ISIL has been seeking to expand its 
influence in Lebanon and its commander said the group would use 
Lebanon as a gateway for al-Qaeda to strike Israel.
    So how do we protect U.S. security interest or Israel and 
ensure stability in Lebanon? The strain that the Syrian 
conflict has put on Lebanon cannot be understated. Last week, 
the U.N. high commissioner for refugees announced that the 
number of refugees who have fled to Lebanon is now over 1 
million and counting.
    The United States continues to provide humanitarian 
assistance to Lebanon, nearly $350 million to date, in an 
effort to help it cope with this massive influx of refugees, 
and since 2006 we have also increased our security assistance 
to Lebanon with the goal of improving the capacity of Lebanese 
Armed Forces, LAF, and its Internal Security Forces, ISF, 
aiming to bolster their capacity to serve as effective and 
nonsectarian forces to provide safety in Lebanon.
    Lebanon is in the middle of a political transition, again 
divided along religious ideologies and positions taken in 
support or against Assad in Syria, and it is imperative that a 
government can be formed that can put aside sectarian and 
religious identities and work toward stabilizing the country. A 
small step was taken earlier this year when a new cabinet was 
formed after nearly a year of deadlocked negotiations.
    But now with the current President's term set to expire 
next month and elections pushed back until November, continued 
violence and animosity between the main political groups 
threatens to derail the process. The administration must 
continue to press the Lebanese leaders to hold free, fair and 
transparent elections on time.
    But in order to have elections, the security situation must 
improve so we must help the LAF and the ISF fight back the 
increased sectarian violence that is tearing the country apart. 
The U.S. cannot continue to take a reactive lead-from-behind 
approach in Lebanon as it has been doing throughout the rest of 
the region.
    The administration's failed policies in Syria and Iran did 
not create the atmosphere we see in Lebanon now but they have 
certainly contributed to the instability.
    Instead of coddling Iran and offering concession after 
concession, we should be condemning the Iranian regime for its 
support of terrorism, namely Hezbollah, and its abysmal human 
rights record.
    Even while the Syrian crisis continues and the sectarian 
violence spreads throughout Lebanon, we cannot forget that 
these terror groups continue to pose a very real threat to U.S. 
national security and to Israel.
    Just last month Israel seized an Iranian arms shipment that 
was headed to Gaza and likely bound for Hezbollah and Israel 
continues to see the Assad regime attempt to transport 
sophisticated weapons like Russian-supplied surface to air 
missiles to these extremists and Israel is then forced to take 
action to prevent these transfers.
    It is time that the administration defines a clear and 
decisive plan and takes real and concrete action to defend our 
interest and that of our allies.
    And with that, I turn to our ranking member, Mr. Deutch.
    Mr. Deutch. Thank you, Madame Chairman. Thank you, Deputy 
Assistant Secretary Silverman and Spence for being here today. 
I think we all agree that Lebanon is truly at a critical 
juncture and has increased the tension for the United States 
and from the international community.
    Lebanon has faced tremendous internal struggles, from a 15-
year civil war to foreign intervention to its balancing act 
with Hezbollah functioning as a de facto state within a state, 
and now these initial struggles are compounded by the 
increasing external pressures of regional events.
    Perhaps no country in the region has been as adversely 
affected by the Syrian crisis as Lebanon. Last week the United 
Nations registered the millionth Syrian refugee in Lebanon--
over 1 million Syrians officially now refugees in a country 
whose population is only 4 million.
    With no official refugee camps, Syrians are now in 1,600 
different towns and cities desperately looking for work and 
shelter. The humanitarian effect of the Syrian crisis on 
Lebanon is only one piece of the puzzle.
    Spillover from the feud between the Assad-aligned Hezbollah 
fighters and al-Qaeda-affiliated extremists has dramatically 
increased violence on the ground in Lebanon. Retaliatory 
bombings have struck both Sunni and Shi'ite areas and targeted 
Lebanese armed forces and security services personnel.
    Hezbollah is so deeply ingrained into the fabric of 
Lebanese society that Shi'ite populations have no choice but to 
rely on it not just for security but for social services, 
schools and health care. A legitimate Lebanese Government 
cannot function effectively when it is in a constant power 
struggle to govern with a nonstate actor.
    But calling itself a resistance movement or a political 
party does not diminish from what Hezbollah truly is--an 
Iranian-backed worldwide terrorist organization. Hezbollah's 
activities have destabilized the entire region from its 
estimated 4,000 fighters in Syria to its recent cross border 
attack on an IDF convoy. Hezbollah has launched attacks around 
the globe and every single day has 75,000 rockets aimed at 
Israel.
    Hezbollah's illicit financing ventures have propelled it to 
a global criminal network with fundraising and finance 
operations in Europe, in Africa and in Latin America.
    I commend my colleagues on this committee--Brad Schneider 
and Mark Meadows along with Chairman Royce and Ranking Member 
Engel--for the introduction of new legislation that will help 
the United States rein in Hezbollah's illicit activities and 
financing of terrorism around the globe.
    Deputy Assistant Secretary Silverman, I hope that you will 
speak to what more the U.S. can do to strengthen actors that 
can provide a viable alternative to Hezbollah. The selection of 
a new President who is beholden to Hezbollah would greatly 
diminish efforts to ensure the Lebanese Armed Forces have sole 
responsibility for the country's security.
    At the same time, the LAF must be held accountable by the 
U.S. and our partners for this charge, meaning the LAF must 
treat all security threats whether from Hezbollah or al-Qaeda 
outlying militias the same.
    I am concerned about reports that many feel the LAF is 
losing its neutrality due to its hesitancy to provoke 
Hezbollah. The U.S. has engaged in training the LAF in the 
areas of border control and counterterrorism and Lebanon 
receives the fourth largest sum of U.S. international military 
training and education funds.
    We must encourage our Western and regional partners to 
continue to support the Lebanese Armed Forces. This includes 
international enforcement of Security Council Resolution 1701, 
which calls for the disarmament of all armed groups in Lebanon 
and gives full security control to the forces of the Lebanese 
Government.
    Saudi Arabia committed $3 billion in military aid to 
Lebanon. We must work in concert with the French and our 
partners in the International Support Group for Lebanon to 
ensure that these finds are delivered in an effective manner.
    Improving the immediate security situation is a first step 
toward repairing the Lebanese economy. Significant pressure 
from the influx of Syrian refugees has led to a total economic 
loss to the country of $7.5 billion from 2012 to 2014, 
according to World Bank estimates.
    Official unemployment is at 20 percent. Significant energy 
finds may also contribute to Lebanon's long-term financial 
stability but it is imperative that any potential exploration 
follows only after a settlement to the maritime border dispute 
in the eastern Mediterranean.
    As the U.S. continues to provide humanitarian assistance to 
address the immediate needs of Lebanon, we must also consider 
investing in long-term projects that can shore up Lebanon's 
economy for years to come.
    Madam Chairman, Lebanon cannot maintain its balancing act 
forever and I fear we are reaching the tipping point. Now is 
the time to increase pressure on Hezbollah and increase support 
for government institutions to help steer Lebanon on a path to 
stability and true democracy.
    I thank you and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. Excellent opening 
statement, and we have three members who have indicated that 
they are the ones who would like to have 1-minute opening 
statements and we are thrilled that they do want to do so.
    So Mr. Meadows of North Carolina, whose bill is related to 
Hezbollah. Thank you.
    Mr. Meadows. Thank you, Madam Chairman. Thank you both for 
coming here. It is good to see you again, Mr. Silverman. I look 
forward to hearing your testimony on how we from a policy 
standpoint can best implement policy to help the Lebanese 
people enjoy a peaceful and secure environment.
    Obviously, our ally, Israel, right next door has tens of 
thousands if not hundreds of thousands of rockets aimed at them 
from many of the Hezbollah-related activities.
    We have introduced as recent as yesterday a sanctioning 
bill and would like to hear your comments on that how that 
might be effective, how we could potentially adjust that to 
make it an effective tool for the administration to address 
many of the terrorist activities that we all have come to know 
and read about on a regular basis.
    So I look forward to your testimony and I yield back, Madam 
Chair.
    Ms. Ros-Lehtinen. Thank you, Mr. Meadows. Mr. Schneider of 
Illinois.
    Mr. Schneider. Thank you, Madam Chair and Ranking Member 
Deutch, for convening this timely hearing. Thank you to the 
witnesses for being here today.
    Lebanon is at a precipice, facing the specter of renewed 
sectarian strife fueled by the civil war in Syria. Over 1 
million refugees have crossed the border, putting extreme 
pressure on Lebanon's already stretched resources.
    At the same time, Hezbollah fighters are active in Syria, 
fighting on behalf of the Assad regime, while Sunni extremists 
are increasingly active inside Lebanon. It is in this context 
that the U.S. must understand the dynamics of the challenges in 
Lebanon and develop intelligent policy to protect our interests 
and security and the security of our allies in the region.
    In that vein, yesterday I was pleased to join my friend, 
Mark Meadows, Chairman Royce and Ranking Member Engel to 
introduce legislation targeting Hezbollah's global financing, 
drug trafficking and propaganda programs.
    Hezbollah's activities threaten not just peace and 
stability in Lebanon but throughout the region, in particular 
our key ally, Israel. The Hezbollah International Financing 
Prevention Act would provide the administration with a strong 
enforcement mechanism to combat Hezbollah's terrorist financing 
that is destabilizing throughout the Middle East.
    I look forward to hearing from our witnesses on how best to 
address this global financial network and what tools we can 
provide the administration to help go after these illegal 
networks.
    Thank you, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider. Mr. Higgins of 
New York.
    Mr. Higgins. Thank you, Madam Chair.
    You know, Lebanon is a microcosm of, I think, the general 
problem that we deal with in the Middle East. It is highly 
pluralistic. It has a history of civil war over 15 years. It 
was probably the first minority-led regime in the Middle East 
behind Iraq and currently Syria.
    Hezbollah, Party of God, is a Shi'a organization bent on 
violent jihad. They act as a proxy for Iran, Syria and 
Venezuela. They have a presence in North America, including 15 
American cities.
    They have about 60,000 missiles, medium and long range, and 
they sit at the northern border of Israel. Getting Lebanon 
right but also recognizing that America's role in this is going 
to be very, very limited and we have got to find a way to 
influence it without getting entangled in it, which I think is 
the larger problem that we deal with in the Middle East.
    So with that, I will yield back the balance of my time and 
look forward to the testimony.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Higgins, and 
thank you to all of our members.
    I am very pleased to introduce our witnesses. First, we 
welcome Mr. Lawrence Silverman, who is Deputy Assistant 
Secretary of State for Near Eastern Affairs at the Department 
of State.
    Prior to this position, Mr. Silverman was director of 
Israel and Palestinian Affairs and focused primarily on the 
Middle East, serving overseas in Jordan and Syria and in 
Washington as special advisor to Assistant Secretary of Near 
Eastern Affairs, William Burns.
    Mr. Silverman began his State Department career in South 
Africa and Namibia where he was a member of the U.S. team that 
negotiated the agreement leading to the independence of that 
country and the withdrawal of Cuban troops from Angola. Job 
well done.
    We also have with us, and we thank him for being here, Dr. 
Matthew Spence, who was appointed Deputy Assistant Secretary of 
Defense for Middle East policy in February 2012. Prior to 
joining the Defense Department, Dr. Spence served as special 
assistant to the president and senior director for 
international economic affairs at the National Security 
Council, and from '09 to '11 he was senior advisor to the 
national security advisor at the White House.
    Thank you very much, both of you gentlemen, for joining us, 
and Mr. Silverman, we will begin with you.

     STATEMENT OF MR. LAWRENCE SILVERMAN, DEPUTY ASSISTANT 
 SECRETARY, BUREAU OF NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Mr. Silverman. Thank you very much, Chairman Ros-Lehtinen, 
Ranking Member Deutch, distinguished----
    Ms. Ros-Lehtinen. You could put the microphone a little bit 
closer.
    Mr. Silverman. Is that better? Thank you very much, 
Chairman Ros-Lehtinen and Ranking Member Deutch, distinguished 
members of the subcommittee.
    Thank you for inviting me to testify on Lebanon, a country 
whose stability is central to U.S. interest in the region.
    This is a key moment for Lebanon. The massive refugee 
influx, the largest per capita in the world, is an urgent 
humanitarian crisis. Lebanon, as you say, just registered its 
1-millionth Syrian refugee, representing over 20 percent of its 
population.
    Lebanon faces rising security and economic challenges. The 
United States is responding to these challenges because we want 
a stable secure Lebanese partner. In the midst of these 
challenges, Lebanon's political leaders have passed two of 
three political hurdles this year.
    The March 20 approval of Prime Minister Salam's cabinet 
after months of stalemate is welcome. So is the government's 
agreement on a ministerial statement and a vote of confidence 
that empowers it to address all issues, unlike its predecessor.
    The government includes eight members from the March 14 
coalition, eight members from the March 8 coalition and eight 
others without formal affiliation. It is an improvement over 
its predecessor in that nearly all factions are represented in 
a careful balance. How we will work with the government depends 
on its policies and its actions.
    President Suleiman's term in office is scheduled to end on 
May 25th. United States strongly believes that Presidential 
elections, the third hurdle, should be conducted on time, 
freely and fairly and without foreign interference. That, of 
course, goes for parliamentary elections as well. We hope the 
interest that produced agreement on the cabinet will prevent a 
vacancy in the presidency.
    Lebanon faces a porous border with Syria that eases 
terrorist infiltration, Hezbollah's weapon stockpiles that lie 
beyond government authority and the need to implement U.N. 
Security Council Resolution 1701 which calls for the 
disarmament of all armed groups.
    Political and sectarian differences have been intensified 
by the war in Syria. Hezbollah entered that war to protect the 
Assad regime and to do the bidding of its foreign sponsors. 
Syrian aircraft and artillery violate Lebanon's borders with 
impunity.
    Lebanese towns near the border, such as Arsal, have borne a 
particularly heavy burden. A stretched Lebanese Armed Forces 
has acted to maintain internal security. The LAF has recently 
undertaken a major operation in Tripoli that has made some 
progress toward restoring calm and there may be upcoming 
operations in the Bekaa.
    The LAF has the political support to do these operations. 
The LAF has also had counterterrorism successes last year and 
this year, capturing high-profile terrorists including a 
facilitator for al-Qaeda-affiliated groups responsible for a 
spate of suicide bombings.
    My colleague, Deputy Assistant Secretary of Defense Spence, 
will provide details of our assistance to the LAF. But let me 
emphasize the importance of the relationships we have formed 
through our assistance to the LAF and to the Internal Security 
Forces, as Madam Chairman mentioned.
    We seek to increase this assistance in order to build the 
LAF's capabilities to secure its borders with Syria. Let me 
also emphasize at the outset that we continually assess our 
assistance to ensure that no terrorist organizations including 
Hezbollah influence or benefit from our assistance.
    We believe we have an excellent record in this regard. As 
you know, Saudi Arabia plans to provide $3 billion in aid to 
the LAF. We are in contact with Saudi Arabia and with France to 
promote the complementarity that some of you mentioned in order 
to maximize the growth of the LAF's capabilities.
    The Saudi aid in no way obviates the need for continued 
U.S. assistance which is crucial to meeting needs and building 
relationships. Deputy Assistant Secretary Spence and I will be 
travelling to France later this month to engage in continued 
discussions on just this subject.
    Madam Chairman, half of the 1 million Syrian refugees are 
under the age of 18. The refugees reside in host communities, 
in rented rooms, unfinished buildings or informal tented 
settlements throughout the country.
    The United States has provided now some $370 million in 
assistance to help cope with this burden. We urge other 
countries that have not delivered on their pledges to Lebanon 
to do so now.
    The World Bank estimates that the Syria crisis will have 
cost Lebanon $7.5 billion by the end of this year and will cut 
GDP, real GDP growth, by 2.9 percent this year. Reserves of 
offshore natural gas offer one potential ray of optimism but to 
date the lengthy political stalemate and the maritime boundary 
dispute with Israel have prevented further exploration.
    We hope the new government will continue efforts to find an 
arrangement regarding this dispute that will allow the Lebanese 
people to benefit from these resources.
    Madam Chairman, in the face of all of these challenges, 
U.N. Secretary General Ban Ki-moon and Lebanese President 
Michel Suleiman mobilized support for Lebanon last September by 
launching the International Support Group for Lebanon.
    This group must be an active vehicle for international 
support. In 2 days I will join other members of this group and 
representatives of the LAF to discuss how we can further 
address Lebanon's security assistance needs.
    The United States is also committed to helping end impunity 
for assassinations and political violence in Lebanon. We 
strongly support the special tribunal for Lebanon, which has 
begun trials of those suspected of assassinating former Prime 
Minister Rafic Hariri and 21 others. The Lebanese people 
deserve justice.
    Chairman Ros-Lehtinen, Ranking Member Deutch, members, 
Lebanon has had partners to see it through its darkest periods. 
The Taif Accord helped end the civil war. U.N. Security Council 
Resolutions 1559 and 1701 helped structure a return to 
stability.
    The Baabda Declaration obligated all Lebanese parties to 
stay out of regional conflicts. It needs to be implemented by 
all parties. The United States will remain a partner promoting 
a stable, secure and sovereign Lebanon free of foreign 
interference and able to safeguard its interest. That is in our 
interest.
    Thank you very much.
    [The prepared statement of Mr. Silverman follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Mr. Silverman. We appreciate 
it.
    Dr. Spence.

STATEMENT OF MATTHEW SPENCE, PH.D., DEPUTY ASSISTANT SECRETARY 
 OF DEFENSE FOR MIDDLE EAST POLICY, U.S. DEPARTMENT OF DEFENSE

    Mr. Spence. Chairman Ros-Lehtinen, Ranking Member Deutch 
and other distinguished members of this committee, thank you 
for the opportunity to speak with you about the security 
situation in Lebanon, the importance of our partnership with 
the Lebanese Armed Forces and thank you for your comments 
calling attention to the critical nature of this issue right 
now.
    The impact of the Syrian conflict on Lebanon is stark. I 
visited Lebanon in January with the purpose of evaluating 
first-hand the deteriorating security situation there. I met 
with President Suleiman, General Kahwagi and other senior 
Lebanese officials and members of the Lebanese Armed Forces.
    It was very clear to me that more than ever United States 
security cooperation is essential to helping maintain Lebanon's 
stability. This is essential for America's national interests 
as well as that of Lebanon and America's allies and partners in 
the region.
    Just last week, as many of you have noted, the United 
Nations reported there are now more than 1 million refugees in 
Lebanon from Syria. That is equal to over 20 percent of the 
population of Lebanon.
    It is a figure that rightly gives all of us pause. Now, 
despite Lebanon's official disassociation policy regarding the 
Syrian conflict, Hezbollah is militarily and, I would say, 
nefariously involved in Syria and sectarian tensions are 
spilling over increasingly over the Syria-Lebanon border.
    Lebanese towns and villages near the border with Syria are 
regularly experiencing shelling from Syria both by the Syrian 
regime and by Syrian opposition forces and terrorists.
    The Syrian conflict is in fact incubating extremism on both 
sides of the sectarian divide. One of the most concerning 
aspects of the Syrian conflict from the U.S. security 
perspective is that it is attracting foreign fighters from 
across the region and from around the world.
    We assess that there are now significantly more foreign 
fighters in Syria than there were foreign fighters in Iraq at 
the height of the Iraq war. The Assad regime is receiving 
active support from Iran and from Hezbollah. This is 
unacceptable.
    Many other foreign fighters are finding their way into a 
number of fighting units including terrorist groups, the al-
Nusra Front and the Islamic State of Iraq and the Levant. These 
foreign fighters are becoming battle hardened and they are 
gaining experience that could have destabilizing effects in the 
years to come.
    Both the Islamic State of Iraq and the Levant and al-Nusra 
Front have established a presence in Lebanon and they are 
seeking to increase their cooperation with Sunni extremist 
groups already operating there.
    And I would also add that terrorist attacks in Lebanon are 
on the rise. Since the beginning of 2014 alone, nine suicide 
attacks have hit Shi'a population centers and Lebanese Armed 
Forces targets. But those are not the only attacks.
    Last year, two Sunni mosques were bombed and a leading 
Sunni politician and former Ambassador to the United States was 
assassinated. Leaders from across Lebanon's political spectrum 
have condemned these attacks rightly so and called for unity 
and cooperation with the Lebanese Armed Forces.
    The Lebanese Armed Forces have taken a variety of bold 
measures to maintain stability in Lebanon and counter the 
destabilizing effects that the Syrian conflict risks to 
Lebanese security. They have taken important steps but, of 
course, there is more, far more to be done.
    In the last 7 months, we have seen our partners and the 
Lebanese special forces deploy to Sidon for counterterrorism 
operations, to Tripoli to conduct stability operations and 
Arsal to provide security for the population affected by 
Syria's instability.
    In fact, in the past few days the Lebanese Armed Forces and 
the Internal Security Forces of Lebanon have successfully 
conducted large-scale operations in Tripoli based on the new 
government's Tripoli security plan that plans to stem the 
violent sectarian violence in that city.
    Now, unfortunately, the LAF's willingness and commitment to 
exercise its role as the sole legitimate defense force in 
Lebanon has made it a target as well and just over a week ago 
we have seen Lebanese armed forces personnel targeted as a 
result.
    Now, in the face of these rising challenges the LAF has 
demonstrated considerable unity, fortitude and professionalism 
as evidenced in the recent counterterrorism success. And the 
counterterrorism fight that Lebanon faces, of course, is not 
just in Lebanon's interest but in our interest as well.
    To fight successfully against terrorism, an army must be 
well equipped, properly trained and supported by its partners. 
That is why the United States' role is so important.
    As my interaction in Lebanon with a variety of political 
and military officials has confirmed, strengthening the 
Lebanese Armed Forces is essential at this time when sectarian 
tensions are increasing due to the Syrian conflict.
    U.S. assistance to the Lebanese Armed Forces has helped 
strengthen its capacity and support its mission to secure 
Lebanese borders, defend the sovereignty of the state of 
Lebanon and implement U.N. Security Council Resolutions 1559 
and 1701.
    Significantly, strengthening the LAF will help combat 
Hezbollah by undermining Hezbollah's justification for 
maintaining its arms as will Hezbollah's false claim to be 
acting in the interests of the Lebanese people.
    In conclusion, Madam Chairman and Ranking Member Deutch, I 
would say that the challenge of supporting the Lebanese people 
and the security and stability of the Lebanon state is no more 
important than it is right now.
    The Lebanese Armed Forces is a critical pillar of Lebanon 
stability and its commitment to curtailing sectarian fighting 
and terrorism has been a significant factor in preventing 
Lebanon from descending into greater violence.
    Our position is to work closely with you to continue that 
support. Thank you for the opportunity to speak with you today.
    [The prepared statement of Mr. Spence follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Ms. Ros-Lehtinen. Thank you to both gentlemen for excellent 
testimony. We will begin our question and answer period.
    U.S. security cooperation is essential to helping Lebanon 
maintain stability or at least to help fend off a second civil 
war.
    From Fiscal Year 2009 to 2013, the U.S. allocated nearly 
$\3/4\ billion for the Lebanese security forces. I recognize 
the need to send assistance to the LAF and ISF in order to 
support a stable and secure Lebanon and in order to protect our 
U.S. national security interests.
    However, I also recognize that this is an outrageously high 
amount of money, equipment and training to dedicate to a 
Lebanon that has never really been stable nor free from the 
influence of outside actors.
    I commissioned a GAO report on U.S. security assistance to 
Lebanon which was released in two phases, as you know. GAO 
found that both State and DoD were deficient in their 
assessments in evaluating the effectiveness of our security 
assistance to Lebanon and also deficient in their monitoring of 
the security equipment transferred to the LAF and ISF.
    Both State and DoD concurred with the GAO's findings and 
recommendations. And so I ask what steps have both agencies 
taken to ensure that these deficiencies and gaps have been 
properly addressed in order to maximize the effectiveness of 
our security assistance to Lebanon and why were these steps not 
implemented from the beginning? And I will continue.
    Mr. Silverman, you mentioned the emergence of a possible 
hydrocarbon industry for Lebanon in your testimony. However, as 
you mentioned, there is this unresolved maritime border dispute 
between Lebanon and Israel which has prevented exploration, 
delaying any potential investment, and the uncertainty over the 
future of the Lebanese Government and the instability by all 
the sectarian violence also play major roles in this.
    The administration has been desperately trying to convince 
Lebanon not to drill in disputed waters until this boundary 
dispute is resolved, as you mentioned. Can you discuss some of 
the options we are presenting to try to resolve this dispute 
and to prevent Lebanon from drilling before a resolution is 
found?
    And on the elections, preparations are under way for a 
contentious Presidential election. The atmosphere is charged. 
It could potentially be delayed due to sectarian struggles, and 
last week as we know the Lebanese forces leader formally 
announced his candidacy.
    What are we doing to help Lebanon ensure that these 
elections will truly be free and fair and transparent, and what 
are the probability that these elections will be held on time 
when Hezbollah could be a major factor in all of this?
    And finally, secret talks with Hezbollah--it has been 
reported late last year that the administration is in secret 
talks with Hezbollah with the U.K. acting as intermediary. 
Reports suggest that the administration was willing to warm up 
to a direct relationship in the future but we have to remember 
this is a U.S.-designated foreign terrorist organization that 
is supported by the world's foremost state sponsor of 
terrorism, Iran, and continues to actively carry out terror 
attacks against our ally, Israel.
    Are these talks going on still and is the administration 
viewing a warming of relations with Hezbollah as having a 
possible positive outcome, incredibly enough? And I will refer 
to you.
    Mr. Silverman. Thank you, Madam Chairman. I will deal with 
the last couple of questions and then we will both deal with 
the question regarding the GAO report.
    First of all, on your last question about our talks 
continuing, they can't continue because they never existed. Let 
me say that categorically. It is totally false and we made that 
clear at the time and not only is it something we are not 
doing, it is not something that we would do for many of the 
reasons that you cited.
    You didn't mention as well we have had terrorist incidents 
like the Burgas bombing, you know, in Bulgaria and testimony 
that came out during the trial in Cyprus, which was clear, 
again, about Hezbollah's role in terrorism. So let me be 
absolutely categorical on that point.
    Regarding the Presidential elections, we certainly hope 
that they will not be delayed. We are making our views 
absolutely clear and I believe that Lebanon is a place that 
values the opinion of the United States Government and the 
administration.
    These elections need to take place on time, according to 
the constitution and without foreign interference, and I 
believe strongly that that is exactly what the Lebanese people 
want. The Lebanese people, frankly, I think were skeptical that 
a government could be formed and then it was, and then after 
that they said but you will never have a ministerial statement 
and a vote of confidence but then we did have it and it was 
done----
    Ms. Ros-Lehtinen. Let us get to the GAO because I know our 
time is limited. Thank you.
    Mr. Silverman. Okay. Good. Can I just say one thing about 
the maritime----
    Ms. Ros-Lehtinen. Sure.
    Mr. Silverman [continuing]. The maritime position? Sorry. 
We are actively working and we had an official there last week 
to try to encourage that kind of arrangement between Lebanon 
and Israel to find that arrangement which is mutually 
acceptable.
    So otherwise companies find it difficult. They need a kind 
of certainty to make an investment in Lebanon. So Lebanon is 
the one that loses out by not moving--being able to move 
forward with this legislation. So let me turn to Deputy 
Assistant Secretary Spence.
    Ms. Ros-Lehtinen. Thank you.
    Mr. Spence. Sure. Thank you. I would say we are very 
focused on the issues raised in this report. We are committed 
to reducing the destabilizing role of Hezbollah and Iran, so 
thank you for raising the issues in this report.
    On the specific question you have, end use monitoring is a 
critical part of that effort. The report, as you know, 
Chairman, highlighted that although the Office of Defense 
Coooperation Beirut had entered some of the end use monitoring 
information into the computer database, they had not kept 
physical security checklists for the required 5 years. That 
needed to be changed. It has been changed and we continue to 
look at the recommendations to the report carefully.
    I would also note that the report helpfully raised that the 
Lebanese Armed Forces have an excellent track record with end 
use monitoring. So, again, this is an important issue that we 
follow. It is critical to countering Hezbollah and we continue 
to have this as an ongoing process to follow.
    Ms. Ros-Lehtinen. Thank you, and I am way out of time so 
maybe we will get to the other parts later. Mr. Deutch is 
recognized.
    Mr. Deutch. Thank you, Madam Chairman. Deputy Assistant 
Secretary Silverman, has the flare-up in violence directly 
related to Hezbollah's involvement in Syria eroded support for 
Hezbollah in the Shi'ite community and is there any space for 
an alternative to Hezbollah?
    Mr. Silverman. Thank you, Congressman. I think that 
Hezbollah has been criticized and taken criticism for its 
involvement in Syria. This is literally the dragging of a 
people into a war that they did not want and I really think 
that is reflected in public attitudes toward Hezbollah.
    And then, of course, there have been the casualties that 
Hezbollah has taken. So I think when you see what has happened 
in Tripoli over the last few days after--between 20 and 30 
killed that--and I am hoping you are seeing it, a kind of a 
rising of a greater consensus both among political leaders and 
among--certainly among the population that Hezbollah has 
brought this strike-counterstrike because of their--they 
initiated the involvement in Syria and people do not want the 
violence, which has cost them dearly economically.
    And so I think there is a real view that enough is enough 
and that has caused a greater political consensus why we have a 
government, why we have a ministerial statement that is 
different and less favorable toward Hezbollah.
    Mr. Deutch. So how can the United States and the 
international community strengthen non-Hezbollah factions like 
the March 14th movement ahead of elections?
    Mr. Silverman. I think that is essential. We need to 
strengthen the institutions. I mentioned the international 
support group and President--which helped President Suleiman in 
that critical period very late last year, and our ongoing 
support for moderate voices in Lebanon and to continue our 
economic assistance, which is very important.
    If we can help them reach this agreement on petroleum--
potential petroleum resources that can be a huge boon in coming 
years and helping them deal with the burden because let me 
emphasize the burden of the refugees. We always talk about 
refugees.
    We need to talk more about the host communities that are 
affected by the refugees and some of our aid is going to that. 
So I think in many ways we are trying to build up what we 
consider the responsible voices and I think calling for on-time 
elections according to the constitution help that. Thank you.
    Mr. Deutch. Thank you. Dr. Spence, some reports indicate 
that Lebanese Armed Forces are losing the perception of 
neutrality due to seemingly greater focus on cracking down on 
Sunni extremists over Hezbollah-affiliated militias. Is that a 
trend you are seeing?
    Mr. Spence. You know, one thing that we are most concerned 
about is making sure the Lebanese Armed Forces can remain a 
multi sectarian impartial defender of the legitimate use of 
force for the Lebanese people.
    You know, we have seen the Lebanese Armed Forces deploying 
more on the border and it has been extremist and has often been 
Sunni extremists which have been moving more. So that is for 
two reasons.
    That is mostly because it has been Sunni extremists have 
been moving more across the border and right now Hezbollah is 
actually able to freely pass through the border legally right 
now.
    Mr. Deutch. And has--make that last point again.
    Mr. Spence. So right now the Sunni extremists are the ones 
who are crossing illegally so it is there. As more border 
checkpoints have been turned over to the LAF that is what they 
are doing. Hezbollah is able to pass freely over the border.
    Mr. Deutch. Well, has U.S. training on border control 
affected the ability of Iran to smuggle weapons to Hezbollah in 
any way then?
    Mr. Spence. It is--you know, it is difficult. I think one 
thing that we tried to do through our 1206 funding is to 
provide greater border security and that is everything from 
monitoring issues across the border. It is allowing the 
Lebanese Armed Forces to take control of additional border 
checkpoints that were in control of others before.
    That is also setting up new checkpoints. So the border 
between Lebanon and Syria is one of the most difficult issues 
we face. But I think that is a key thing that we actually have 
been able to strengthen the LAF's ability to strengthen the 
border along the way.
    Mr. Deutch. Thank you. And finally, Mr. Silverman, you have 
got 30 seconds left. Just make the case for greater American 
attention paid to Lebanon. We have, as you know, a hard enough 
time rallying support and the attention of the American people 
for any number of crises. Tell us why Lebanon is so important.
    Mr. Silverman. Thank you, Congressman. Assistance to 
Lebanon and maintaining the stability and sovereignty of 
Lebanon is really critical to our interests in the region.
    We need to in effect kind of try to do our best to wall off 
both Lebanon and other neighbors, and I am talking here about 
Jordan in particular as well, from the Syrian conflict. We need 
to show that moderate voices have a place and can run a country 
and, you know, we don't often--unfortunately, we only talk 
about Lebanon as an adjunct to the Syria crisis and the war.
    That should not be. Lebanon is a normal country trying to 
do its best and needs to be supported--this is what the 
Lebanese people want, I believe. This is not an extremist 
population. We should not abandon this population to whether--
throughout the region.
    I would say even that the Syrian population is not an 
extremist population and they shouldn't be abandoned either. So 
I think it is critical that our assistance is building up the 
only national institution right now that exists in the wake of 
this civil war. It comes from a very low baseline, which is why 
maybe the figures are so high. But I think there is a huge 
investment and a huge value to maintaining stability and 
sovereignty in Lebanon. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch. And we will turn 
to Chairman Steve Chabot of Ohio.
    Mr. Chabot. Thank you very much, Madam Chairman, and thank 
you for calling this important hearing this morning. It really 
couldn't come at a more critical time as Lebanon's security 
continues to be challenged by forces both within and outside 
its borders.
    Hezbollah, of course, continues to be the biggest threat to 
peace and security in the region. As Lebanon gears up for a 
Presidential election next month and parliamentary elections in 
the fall, Hezbollah can be counted on once again to disrupt, 
intimidate and coerce as it attempts to circumvent the will of 
the Lebanese people.
    Mr. Silverman, let me first of all begin with you. What is 
the Obama administration doing in its talks with Tehran to stop 
the Iranian trafficking of weapons to Hezbollah and what kind 
of discussions are you having with the present Government of 
Lebanon about it providing cover and protection to Hezbollah?
    Mr. Silverman. Thank you, Congressman. Let me make one 
point first, which is that we understand--all of us understand 
that this is not a perfect situation in Lebanon. What we worry 
about and why we focus on the value of this assistance is what 
would be if we were not providing this assistance, if we left 
the field to others, let me just--let me just say that.
    You know, the talks with Iran that are going on in Vienna 
right now are focused exclusively on the nuclear issue. Our 
policy regarding Iran and the actions that we take against 
Iran's destabilizing policies in the region, destabilizing 
actions in the region, remain the same, as does our entire 
sanctions structure against that.
    It is absolutely essential that we stand by our allies in 
the region. That is one of the ways to deal with Iran is by 
building up our allies in the region.
    Mr. Chabot. Excuse me. Let me just stop you. That is very 
nice but please answer the question. What are you saying to 
Iran about them--weapons into Hezbollah? That is the question.
    Mr. Silverman. Well, our policy has been clear throughout 
that we oppose and reject and are calling for an end to----
    Mr. Chabot. Are you saying that to Iran?
    Mr. Silverman. Yes, they have.
    Mr. Chabot. You are discussing in those discussions with 
Iran the weapons going to Lebanon and don't do it?
    Mr. Silverman. We have made our--Congressman, we have made 
our views very clear.
    Mr. Chabot. Is part of those policies----
    Mr. Silverman. But the talks in Vienna are focused on the 
nuclear issue. But we have never stayed away----
    Mr. Chabot. So you are not saying anything about that in 
those talks?
    Mr. Silverman. Those talks are for the nuclear issue.
    Mr. Chabot. Okay. Let me move on. Dr. Spence, what is the 
LAF, which I believe we have given something like $1 billion of 
U.S. aid to, what are they doing to curtail Hezbollah's power?
    Mr. Spence. I think one of the--one of the most important 
things the Lebanese Armed Forces does to curtail Hezbollah's 
power is to become the sole legitimate force to provide for the 
security and stability of Lebanon, and what that does, 
importantly, is that counters Hezbollah's narrative that only 
Hezbollah can provide for the use of force and the protection 
of security of the Lebanese people.
    So the more that we can strengthen the LAF it takes away 
one of Hezbollah's best arguments which we think is a wrong 
argument--that they are the ones defending the Lebanese--the 
Lebanese people.
    Mr. Chabot. Okay. What is the administration currently 
doing in diplomatic discussions with our international partners 
about Hezbollah's international financial presence and the 
seeming tolerance of Hezbollah by allies--our allies like 
France and U.K. and the E.U. in general, despite the E.U.'s 
terrorist labeling of Hezbollah's military wing?
    And also, because I have only got about a minute to go, do 
you see any prospects for Hezbollah an alternative within the 
Shi'a community in Lebanon? And I know that is probably a tall 
order when Hezbollah gets so much of its funding and weapons 
from outside sources like Iran.
    Mr. Silverman. Congressman, on your first point, we have 
been advocating for a long time that our European colleagues 
join us in our--in sanctions and measures taken against 
Hezbollah's financial networks.
    And finally, last year they took this, as you say, this 
designation of the military wing. Let me make clear we don't 
distinguish between political and military wings of Hezbollah. 
For us they don't exist.
    They should have designated Hezbollah full stop but they 
took this step and I will tell you, because I have been 
involved in it and others, it is a constant effort to push for 
actual implementation. We are--kind of interior structures are 
dealing with the Europeans constantly to make that designation 
effective.
    I will just tell you one thing that literally just today 
Germany banned a group that it considers raising money for 
Hezbollah. That is a positive step. I hope it will be echoed by 
others. I think there is much more that can be done on this 
score and we have to do it.
    With respect to your second question, Congressman, there 
are other--Hezbollah does not represent all Shi'a--Lebanese 
Shi'a. There are other politicians. There are other political 
groups that represent the Shi'a.
    Like I said, I believe that there can be a greater 
consensus, a broader consensus among the Lebanese people that 
will build up that reject what Hezbollah has done in dragging 
them into a war which they never wanted.
    Mr. Chabot. Thank you. My time has expired.
    Ms. Ros-Lehtinen. Thank you very much. Excellent questions, 
Mr. Chabot. And we will turn now to Mr. Schneider of Illinois.
    Mr. Schneider. Thank you very much and again thank you for 
your testimony. Mr. Silverman, in your response to one of the 
earlier questions you mentioned that Lebanon is a normal 
country trying to do its best, and I might take issue it is a 
normal country. I see Lebanon more as a delicate balance of an 
ethnic jigsaw that has been for a long time trying to maintain 
that semblance of balance.
    My question specifically is with the inflow of over 1 
million refugees from Syria--what is happening to that balance? 
What is happening from an economic standpoint, from a 
demographic but more importantly from a sectarian standpoint?
    Mr. Silverman. First of all, Congressman, thank you. I 
mean, that is right. Lebanon is not in a normal situation. I 
take the point. What I wanted to stress was it has many normal 
issues that any government has to do.
    For example, it needs to pass two pieces of legislation, 
two decrees, or else you will not see the exploration of these 
petroleum resources. The previous government couldn't do it 
because it wasn't empowered.
    This government is empowered. That is one of the things it 
has to do. It is also facing the civil servants' effort to 
raise wages. So they do deal with the normal thing.
    Clearly, Hezbollah's dragging of Lebanon into this war has 
raised sectarian divides and tensions and now that is what has 
to be ratcheted back. That is why having this real government 
that almost across the entire spectrum is so important and that 
is why we feel that the political leaders must build upon the 
two steps that they have taken by electing a President and then 
carrying out the parliamentary elections.
    That, in the end, is the best way of getting at the 
sectarianism because it is a minority. There are sects but they 
are a minority that--a small minority that promote sectarian 
tension. This is what we saw in Tripoli. When the LAF came in 
people welcomed it--please calm what is going on here and you 
see this in Arsal.
    So we believe very strongly there is the nucleus, the great 
majority nucleus, that don't want any further sectarian divide. 
It is having an incredibly damaging effect. Tourism, for 
example--a lot of tourism from the Gulf. No, not under these 
circumstances of the violence. So it is very practical for the 
Lebanese. The losses that Congressman Deutch cited, for 
example, are huge.
    Mr. Schneider. Right. So as you see, as you said, 1 million 
refugees have come in. There is no prospect at least on the 
horizon for a settlement in Syria so they are likely to be in 
Lebanon for a long time. What implication does that have? What 
policy should the United States be pursuing to make sure that 
doesn't lead Lebanon into further sectarian strife?
    Mr. Silverman. I think one thing is if we, and it can't 
just be the United States, as generous as we have been. We have 
been the number-one donor, $1.7 billion total for the Syrian 
conflict both in Syria--inside Syria and the region.
    The international community has to step up to deal with the 
effects of the refugee population so that host communities are 
not feeling--not receiving fewer health services, less water 
provision, schools, health clinics, all of these things because 
when the host communities feel this that is potential--that is 
a potential seed bed, you know, that can increase sectarian 
tension.
    And that is, I think, the best way to get at it, is to try 
to accommodate the Syrian refugees for as long as they are 
there and the Lebanese people and the Lebanese Government have 
been very generous in this regard. But the international 
community has to step up and try to manage this. That is all it 
is managing.
    Mr. Schneider. Okay. And with my minute left, let me turn 
to Dr. Spence because that sectarian balance also has been 
historically reflected in the makeup of the LAF and with so 
many new refugees coming in, with the Hezbollah fighters now in 
Syria that balance kind of is getting rejiggered. What impact 
and what is being done to make sure that that doesn't lead to 
sectarian fighting within the LAF?
    Mr. Spence. I think--I think, look, you rightly point out 
one of the concerns we have for changing the overall population 
demographics of Lebanon and I think as you noted it is 
something that stretches across all the different areas of 
this.
    We try to do it in a few ways. We think our engagement and 
training with the Lebanese Armed Forces does help reinforce the 
military professionalism about the idea of working with people 
who came from very different backgrounds or there may be 
sectarian fighting outside of the army.
    That is one of the reasons why we have the IMET program. 
The IMET program does help do real training, which isn't just 
one off but it is getting an understanding how do units deal 
with the difficulties when different people come together. It 
is the fourth largest we have in the world.
    That is--we have ongoing training programs within Lebanon 
and it is also an issue that we follow very closely because if 
we do see issues like that as we illustrated or as you 
mentioned it will be very, very detrimental to the project we 
are trying to achieve.
    Mr. Silverman. May I just add something, Congressman?
    Mr. Schneider. With permission.
    Ms. Ros-Lehtinen. Absolutely. Without objection.
    Mr. Schneider. Thank you.
    Mr. Silverman. Sorry. I just wanted to add that this goes 
also for our assistance and our training of the Internal 
Security Forces. They are, along with the LAF, sometimes 
responsible for dealing with the aftermath of bombings of 
people, assassination attempts, and for them to be able to do a 
more professional job that allows for greater accountability 
can build the confidence of the population. They need that 
accountability for such acts. Thank you.
    Mr. Schneider. Thank you. I yield back my time.
    Ms. Ros-Lehtinen. Thank you, Mr. Schneider. Mr. Kinzinger 
of Illinois.
    Mr. Kinzinger. Thank you, Madame Chair, and thank you both 
for being here. Thanks for your service and we appreciate your 
time.
    A couple of points I want to hit but first I want to make 
some comments. I think the thing that is getting somewhat--
well, not really getting lost but that deserves some more 
discussion is the role that the Syrian conflict is playing in 
everything right now.
    I believe that it was a dire mistake of the United States 
to fail to enforce the red line that the President put out. I 
believe that that further reinforced a perception that I think 
is pretty close to reality--that America is retreating from the 
Middle East, that America no longer has an interest in what 
occurs in the Middle East, and I think this does nothing but 
embolden our enemies and enemies of our way of life and enemies 
of freedom.
    I would like to remind everybody that there are about 
160,000 dead innocent Syrians as a result of Assad's brutal 
dictatorship. He has gone from using chemical weapons, though 
he has not destroyed them as he has promised--he has gone from 
using chemical weapons to now using an almost equally 
terrifying thing called a barrel bomb where you pack a 55-
gallon-drum full of explosives and igniter fluid and drop it on 
an innocent population and clear a block simply because you 
don't want people present in a certain geographic location and 
who cares who dies in the process.
    So I think it is very important that as we discuss this we 
remember the brutality that is occurring and I would encourage 
the administration to get involved in what is going on in Syria 
in a much bigger way--arming the moderate rebels, bringing down 
the rebels that we don't agree with that are linked to al-Qaeda 
and other extremist organizations.
    The one thing I would like to say too, and I guess I will 
ask this in the form of a question, in terms of the refugee 
crisis in Lebanon, how is this destabilizing Lebanon? What is 
the United States doing to try to mitigate some of the problems 
that are coming along with that and also are you seeing bad 
actors coming over the border simply pretending to be refugees 
when in fact they seek to destabilize Lebanon?
    Mr. Silverman. Congressman, thank you very much. On the 
last question, this is a constant concern both for us and for 
the host governments and, again, it is not Lebanon only. 
Jordan, for example, faces the same and Turkey faces the same 
problem.
    So it is of concern. You may in any event, and it is 
something that we are coordinating with our neighbors very 
closely on to try to stop. And let me say, and this gets to the 
remarks that you made earlier, we have sharply increased our 
coordination with our allies who are also assisting the 
moderate opposition and also coordinating more with our allies 
on preventing support to extremists and preventing the flow of 
extremists into Syria.
    Is it satisfactory? Absolutely not, and nobody can be 
satisfied with the situation, which is incredibly brutal. I 
lived in Syria under the previous Assad but we all know how 
absolutely brutal this regime is.
    So there is that effort to get at not only the flow of 
extremists but also the financing of extremists.
    Mr. Kinzinger. I appreciate that and back to the Syria 
thing a bit, I hope that--I mean, I hear from administration 
officials that we are doing such a wonderful job in Syria, 
which, I mean, and I understand your position. This is not 
against you but I am not buying it and, you know, frankly, when 
all our Middle East allies tell us that we are doing absolutely 
nothing, I think it is pretty obvious that as people continue 
to go through the meat grinder of innocent folks being killed 
the United States is standing by when I think there is a lot 
more we can do.
    Let us talk about the situation of the Christian community 
in Lebanon. I think this is something that when we talk about 
the Sunni-Shi'a conflict sometimes it gets lost. Can you talk 
to the situation of the Christians in Lebanon, sir?
    Mr. Silverman. Thank you, Congressman. Yes. I mean, Lebanon 
has a uniquely active and influential and political population 
in Lebanon which has a unique role in the presidency, in the 
leadership of the LAF.
    Let me just say that, though, that does not mean, for 
example, that all Christians are united in any particular 
position including about Presidential candidates, as you know. 
So the----
    Mr. Kinzinger. They are not here either so----
    Mr. Silverman. But the Christian community is absolutely 
vital to Lebanon's future and it is, thanks to various 
agreements over the years built into the system, the role--the 
important role that they have and, of course, we are very 
supportive of that role.
    Mr. Kinzinger. Thank you, and thank you again for you all 
being here and your service and, Madam Chair, thank you for 
holding the hearing and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Higgins of New York.
    Mr. Higgins. Thank you, Madam Chair. I think, you know, 
when we are dealing with Lebanon, you know, again, I think we 
are dealing with a microcosm of the Middle East, which is, you 
know, highly pluralistic.
    In Lebanon you have 17 different religious sects. You have 
over 50 percent Muslim population. The population in the Muslim 
community is almost evenly split between Sunni and Shi'a. About 
40 percent of the population is Christian in a nation of less 
than 6 million people, with Lebanese Sunni jihadis and Shi'a 
militia Hezbollah.
    You know, the national armed forces has been viewed as 
highly integrated and serving as a buffer between warring 
factions and it was viewed historically as highly functional as 
well. And some would argue that the Lebanese Armed Forces are 
the only true national organization. Now they are in the 
crossfire in a battle between Shi'a and Sunni.
    I think the mistake that we make here in this committee and 
as a nation is that we view, you know, the situation in Syria 
as, you know, a bad guy, Bashar al-Assad, who clearly is. You 
know, he kills 100,000 or more of his people through chemical 
weapons. But on the other side, you have got al-Qaeda 
affiliates. You have got Islamic extremists who are the best 
fighters.
    So we have these false choices here as though, you know, 
because Bashar al-Assad kills 130,000 people through chemical 
weapons the other side beheads people. You know, so pick your 
choice of demise, I guess.
    And I think the people unfortunately that are true in their 
democratic aspirations for these countries, be it in Lebanon, 
be it in Syria, be it in Egypt, they are the vast minority and 
they don't know how to achieve military success because they 
truly want, I think, freedom and democracy. But they are not 
the majority of the people.
    And the people who are taking up all the space in these 
countries are the people who are fighters, not for freedom and 
democracy but for power. Why do people continue to support 
Bashar al-Assad who is a Alawite, which is about 7 percent of 
the Syrian population, because if you are a minority you fear 
that if the Sunni majority takes over you are going to get 
slaughtered.
    So, you know, these are issues that, you know, there are 
not all these binary choices. We have got a lot of complexity, 
a lot of nuance, a lot of gray area that we have to deal with.
    I will just give you another example. In Iraq, I can 
remember traveling there and meeting with Nouri al-Maliki, and 
Nouri al-Maliki dismissed the congressional delegation's 
concerns that there wasn't enough being done by his government, 
a Shi'a, the majority in the country, to embrace the Sunni 
community.
    So he dismisses it by saying, I have other allies in the 
region, and at that time what he was referring to was 
Ahmadinejad, his Shi'a ally in Iran. Well, guess who was at the 
White House a couple of months ago seeking help from the United 
States to deal with al-Qaeda, who has reemerged as a major 
influence in Fallujah? Nouri al-Maliki.
    We are getting played all over that region and unless and 
until that region realizes that they are a pluralistic society, 
until they guarantee rights for minorities, these issues will 
never be resolved. Your thoughts?
    Mr. Silverman. Thank you, Congressman. I will say that we 
firmly believe that the majority of the population of Syria are 
not extremists. They are the loud--they are making a lot of 
noise. They are brutal, absolutely.
    You know, our Syria strategy is not just countering and 
trying to bring about a political transition in Syria. It is 
also about countering violent extremism, absolutely, and to 
prevent the terrorists safe haven.
    I will say that the Assad regime has manipulated this 
issue. I mean, the policies of the Assad regime have acted as a 
magnet for extremists to come to Syria. Then in reaction to 
that or dealing it tries to draw a benefit from that by 
presenting not just minorities but all Syrians with a choice.
    It is either us or those extremists, and that is a false 
choice too because what they are doing is actually attracting 
extremism and strengthening extremism themselves. Let me--one 
thing about--you mentioned Prime Minister Maliki. Iraq is now 
experiencing the very detrimental and deadly effects of having 
Islamic extremists in--through ISIL and the other groups and 
now they are trying to counter them and it is disrupting the 
elections that are going on right now.
    So, clearly, like as you say there is a real cost to Iraq 
that I think the prime minister recognizes and should 
recognize. Let me also say that we have been categorical with 
Prime Minister Maliki that Iraq needs to do its utmost to stop 
Iranian assistance from coming through Iraq to Syria and much 
more needs to be done on that score and we will continue 
pressing him. Thank you.
    Ms. Ros-Lehtinen. Thank you, Mr. Higgins.
    Mr. Weber of Texas.
    Mr. Weber. Thank you. Questions on three fronts and we will 
probably start with you, Mr. Silverman. What would you say are 
the top--we are going to be short on time so I am going to say 
top two needs for the military, for the refugees and then the 
government? What are those top two needs for each of those 
three groups, and maybe Dr. Spence ought to address the 
military but how do--and then what are the--what is your 
answer--the top two needs of refugees and the government?
    Mr. Silverman. For the refugees, Congressman, thank you, it 
is that strong international support that prevents the refugees 
from becoming any more of a political issue than it is now.
    You have to deal with the demands. You know, Lebanese face 
competition in jobs, competition in rents, competition in all 
kinds of ways from the refugees. So we need to focus more on 
the host communities and building up the host communities. We 
are trying to do that.
    Mr. Weber. And, obviously, that is housing and water and 
jobs?
    Mr. Silverman. Water, educational facilities.
    Mr. Weber. And are we getting a lot of international 
support or are we going most of it alone?
    Mr. Silverman. You know, Congressman, I was in Kuwait with 
Secretary Kerry at the last donors conference for the Syrian 
conflict. It raised a record of $2.6 billion in pledges but 
until a couple of weeks ago I think the figure was 14 percent 
of those pledges have been delivered. Now the Kuwaitis, I 
understand, delivered some $\1/4\ billion yesterday or the day 
before but just within recent days and that is a good thing, 
obviously.
    Mr. Weber. Okay.
    Mr. Silverman. But we need to have that follow-up.
    Mr. Weber. And the government--how do we assist the 
government?
    Mr. Silverman. I think we assist the government by 
assisting those responsible forces by calling for elections on 
time by the constitution and trying to prevent outside 
interference in the selection of leaders.
    Mr. Weber. Are we hated over there?
    Mr. Silverman. No, not by any means.
    Mr. Weber. Not by any means.
    Mr. Silverman. Not by any means, Congressman. No.
    Mr. Weber. So us getting involved is going to be a good 
thing categorically across the board?
    Mr. Silverman. I believe that the Lebanese people value 
very much value--I know the LAF values it but I think across 
Lebanese society there are many, many strong ties to this 
country, as you know.
    Mr. Weber. But, obviously, not so with the Hezbollah parts 
of the government. Let me just ask you a specific question. In 
June 2000, the U.N. certified that Israelis had withdrawn and 
all the Lebanese territory had been given back. But in August 
2000, Lebanon's new cabinet approved a draft policy statements 
securing Hezbollah's existence as an armed organization and 
their guaranteed right to fight to remove Israeli occupation. 
Is that still their policy?
    Mr. Silverman. Congressman, I mentioned this ministerial 
statement that the government finally agreed on which allowed 
it to get its vote of confidence. In previous governments there 
had been language which talks about a government endorsement of 
the army, the people and the resistance, and everybody knew 
what the term ``the resistance'' means--Hezbollah.
    Mr. Weber. And so that is still in play?
    Mr. Silverman. No, no, no. That is out now. Under this new 
ministerial statement it now----
    Mr. Weber. Okay. When did that take place? I missed that.
    Mr. Silverman. That was just within the last month.
    Mr. Weber. Okay. And I am sorry. I am running out of time. 
Let me go over here to Dr. Spence.
    Military--what is your suggestion?
    Mr. Spence. You asked--Congressman, I would say there are 
two that you asked for. One would be border security and the 
other would be counterterrorism.
    Mr. Weber. But with all due respect, Dr. Spence, we can't 
even secure our own borders.
    Mr. Spence. Well, I think--I think looking at this 
situation it is all the more reason we just need to do as much 
as we can to help the Lebanese Armed Forces secure their 
borders and I think it is through the 1206 program that we can 
try to do--that could try to do this.
    Some of the equipment that we give to surveille the border, 
which is very, very porous, includes radars and sensors. And I 
think in these very difficult times to continue that support is 
important, and then also for the for-military financing to 
continue what we are doing for training, for vehicles, for 
helicopters, for communications.
    Mr. Weber. How do we ensure that none of those funds/
equipment are falling into the hands of Hezbollah?
    Mr. Spence. I think we need to continue the end use 
monitoring that we have, which is a critical part of our 
strategy to support the LAF as well as to counter Hezbollah.
    Mr. Weber. Are you aware of any of that making its way to 
Hezbollah currently or in the past?
    Mr. Spence. I think right now, as we said, making sure that 
we limit the role of any of this equipment ending in--or 
training in this area.
    Mr. Weber. But that is not my question. Are you aware of 
any of it having fallen into the hands of Hezbollah in the 
past?
    Mr. Spence. I think right now, Congressman, as I said, as 
we look at it very carefully. We want to make sure to engage 
senior Lebanese officials at a very robust level so we have 
good lines of communication.
    Mr. Weber. Is that a no?
    Mr. Spence. Right now it is an answer that it is an ongoing 
something that we look at. As far as the end use monitoring 
that we have, having reviewed it carefully both on its own 
right and then as a result of the GAO report, I feel confident 
and good about our end use monitoring issues right now and we 
continue----
    Mr. Weber. You may feel confident and good but a lot of 
people are still getting killed. So that is why I want to make 
sure that nothing winds up in the hands of terrorists. Madam 
Chair, I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Weber. Mr. Vargas 
of California.
    Mr. Vargas. Thank you very much, Madam Chair. I appreciate 
it. You know, one of the things I think is hard is for 
Americans to keep score here in Lebanon--who is where and what. 
I mean, the reality is that I think most Americans remember 
Beirut as the Paris of the Middle East and a wonderful place.
    Then there was the civil war and then there was all sorts 
of conflict and then they were dragged in, and now there are 
extremists and now supposedly they like us again.
    But I guess the general question I would ask is a question 
I think you began to answer. I would like you to expand. I 
mean, I think we shouldn't leave the field--I think it would be 
a mistake--because of extremists but I think a lot of Americans 
just said to hell with it. You know, why are we there--why are 
we spending money--why are we helping these guys.
    I mean, at the end of the day we can't even keep score. Why 
should we be there, Mr. Silverman?
    Mr. Silverman. Congressman, thank you. I mean, I think your 
point on keeping score why it is so confusing, there are so 
many different factions and groups. That is exactly it.
    It is a mosaic that needs to be protected. It is a 
pluralistic system that needs to be protected. It is a multi 
religious place which has leadership in the various branches 
that represent all religions. That is why it is so important 
just for the stability of where it is but also as a kind of a 
lesson that this can work in the Middle East.
    It is extremely important. So you don't have to know all 
the details about Lebanon and I agree, it can be really, really 
daunting to anybody from the outside.
    May I just say one thing about the ministerial statement 
that I didn't say earlier? This is not the kind of ministerial 
statement that we would have drafted or not. It is a net 
improvement with its respect to talking about resistance. But, 
again, it is not what we sought or what we wanted but it is 
something better than what we had, just to clarify. Thank you.
    Mr. Vargas. No worries. Dr. Spence, you are a southern 
Californian. How would you explain it to the guys back home? I 
mean, they take a look at this and they say, you know, what the 
hell are we doing there?
    Mr. Spence. I think when I do and sometimes I am actually 
asked this at home over the Thanksgiving table--you know, what 
are you doing, especially coming back from here. I think what 
happens in Lebanon is hugely important for a lot of reasons.
    First, we owe something to the Lebanese people. These are 
people aspiring for democratic government for their society. 
They want to freely choose their leaders and to get that and 
get the dreams they trying to--looking for they need security, 
they need stability and they are deserving of that.
    I think, second, that what happens in Lebanon doesn't stay 
in Lebanon, that there is an impact around the region and our 
closest allies and partners that border Lebanon are deeply 
impacted by what happens in Lebanon. So what happens in Lebanon 
matters much broader than what happens actually in the country.
    And I think, third, there are enemies, like Iran, which are 
trying to do things in Lebanon that are against America's 
national interest, and the more that we can counter what Iran 
is trying to do anyplace around the world strengthens the hands 
of what we are trying to do against our enemies.
    Mr. Vargas. And that, of course, makes sense to me. But 
then how do you explain this? I mean, we say well, they want 
democracy--we ought to help them out--and then they cozy up to 
Hezbollah.
    I mean, they cozy up to terrorist groups. They cozy up to 
these groups that, you know, are anathema to what we believe in 
and, again, that is hard to explain to the people back home why 
we are spending, you know, $1.7 billion, you know, for these 
guys that say yes, you know, we love America and Hezbollah.
    Mr. Silverman. Congressman, just to say that the political 
situation in Lebanon is unique. The responsible voices, 
moderate voices are trying to deal with it as best they can. 
That is exactly why, though.
    Since Hezbollah has a role let us support the Lebanese 
people that do not want to see this role in Lebanon and do not 
want to see the country dragged into a foreign conflict and 
that is why we need to support these other voices.
    It is the situation in Lebanon now but I think we are all 
dedicated and we really believe that we can make progress 
toward a better situation in Lebanon. It doesn't have to have 
this role.
    Mr. Vargas. Okay. Before I yield back, I would say that, 
you know, for someone like myself there is a very large 
Christian contingent in the country, a very important 
Christian--and it needs to be protected. It is one of the 
reasons I think we should be there.
    The Mennonite Christians have been there a long time, the 
Orthodox, and so again I appreciate all your efforts. I just 
think we have to do a better job explaining it to the American 
people because the American people are getting tired and I 
think we have to do a better job of communicating that.
    But thank you so much for being here and thank you for 
giving it your shot. Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Vargas, and good 
answers, gentlemen. And so pleased to yield to Mr. Meadows, who 
will be shepherding the Hezbollah bill through this session. 
Mr. Meadows.
    Mr. Meadows. Thank you, Madam Chairman, and thank each of 
you for your testimony. I want to follow up a little bit on 
where my friend and colleague from California because it gets 
to be a very difficult sell.
    You know, he may think it is difficult in California. It is 
much more difficult in North Carolina, and so as we start to 
look at that it is really about making sure that we stand with 
our allies, that we create a safe and secure environment for 
the Lebanese people. But even beyond that, if we look at 
Hezbollah and their influence, speak to where they are showing 
up other than in Lebanon.
    I mean, you know, there have been reports of Latin America, 
Canada, you know, Europe. Part of the difficulty as we see this 
terrorist organization is that in Europe some view them as a 
charitable organization.
    You know, you start to look at the rhetoric that is very 
difficult for me to defend. So Mr. Silverman, I can see you 
are--you can comment on that.
    Mr. Silverman. Can I comment as a former resident of North 
Carolina?
    Mr. Meadows. Yes, that is great. We will give you honorary 
Tarheel status today.
    Mr. Silverman. Thank you, Congressman. I think, obviously, 
the swathe that Hezbollah cuts is indeed wide. It is 
unfortunate that it took the attacks in Bulgaria, the attacks 
in the operations in Cyprus and elsewhere and then, of course, 
in Latin America but it is unfortunate that it took so long to 
get Europe to designate. But, again, as I told you it is--in 
our view it is an imperfect designation and in any event it 
needs to be implemented to its fullest extent.
    So that is why we need to--we really need and we do have a 
very broad diplomatic effort both, let us say, foreign 
ministries to foreign ministries but interior ministries to 
interior ministries, counterterrorism people to 
counterterrorism people what is the legislation that you need 
to inhibit Hezbollah's ability to fund itself.
    Of course, Hezbollah is getting a lot of money from Iran as 
well and I think our sanctions on Iran help with that. I will 
say, you know, you mentioned, you know, some of these 
charitable organizations. I mentioned to you that today Germany 
banned a group.
    Mr. Meadows. Right.
    Mr. Silverman. The name of that group was the Orphan 
Children Project for Lebanon.
    Mr. Meadows. Right.
    Mr. Silverman. So that will give you an idea of what was 
being--apparently allegedly was being used as a front.
    Mr. Meadows. Well, in the sanction bill that we put forth 
we are trying to with a scalpel provide an additional tool 
without throwing a wide net to say okay, here is what we need 
to go after.
    We need to designate Hezbollah in another way to give us 
the ability to go after them. With that kind of legislation any 
concerns that you have there in terms of hampering what is 
going on? Certainly, we don't want to get in the way of 
Ambassador Sherman or anything else that is going on. Any 
concerns that you would have there?
    Mr. Silverman. Congressman, thank you, and of course we 
share your sentiment fully about Hezbollah and that is why they 
were designated in 1995 as a foreign terrorist organization.
    There have been multiple executive orders. They were 
designated in 2012, both Hezbollah as an organization and Mr. 
Nasrallah for providing material support to the Assad regime. 
We have blocked assets. We have criminalized U.S. interaction. 
We have alerted financial institutions, et cetera.
    With respect to the legislation itself, it was introduced 
yesterday and we are examining it now in detail through the 
interagency process. So I can't offer you a view here right now 
and today but we will be coming back to you, obviously, with 
our views on the legislation about what more can be done as 
well.
    But I think a lot of it has to do with implementing what--
in addition, implementing what we have and not just us, of 
course. As I said, other countries as well, which do not have 
all of the legislation that--and measures that we have in 
place.
    Mr. Meadows. Well, we tried to identify some of those holes 
that we have been seeing and, honestly, have been working on 
this since last July and have held off for a number of reasons. 
And so as we look at that I would be interested in your input. 
I want to close out with this last question.
    There have been widespread reports. I just returned from 
the region where you have Hezbollah among the Lebanese people. 
It makes it very difficult to have a free society when you have 
this terrorist group infiltrating not only neighborhoods but 
many of them, perhaps the military, government throughout. I 
would like each of you if you could speak to that, and I would 
yield back.
    Mr. Silverman. Congressman, for my part I would just say 
this is exactly why we have to build up the other side of the 
equation in Lebanon and that is what we are trying to do. I 
don't believe--you know, I don't believe Lebanon wants--the 
Lebanese people, the great majority of Lebanese people want the 
kind of policies that Hezbollah is promoting and certainly not 
its terrorism, certainly not its adventurism in foreign 
conflicts in which they have no business being.
    You know, the Lebanese people were very happy to see Syria 
and Syrian troops leave their territory and that is why we need 
to support those voices in Lebanon.
    Mr. Spence. Congressman, the one thing I would add is it is 
an issue that we need to work around the world to continue to 
isolate the role of Hezbollah and it is something that we can 
do.
    I am sorry--to isolate the role of Hezbollah, to encourage 
the role of what the Lebanese Armed Forces are doing. So we 
work to isolate Hezbollah around the world. We need to work 
with our partners in doing it because the United States can 
play an important role on this but it is not something that we 
can do alone.
    Mr. Meadows. I appreciate the patience of the chair.
    Ms. Ros-Lehtinen. And thank you for your leadership, Mr. 
Meadows.
    Dr. Yoho, another Florida colleague.
    Mr. Yoho. Madam Chair, thank you. Gentlemen, I appreciate 
your testimony here. Let me ask you, that $1.7 billion, how 
long of a time span has that been that we have given that 
foreign aid?
    Mr. Silverman. Congressman, the $1.7 billion that I cited 
was for the Syrian refugee crisis entirely. That was the $1.7 
billion that----
    Mr. Yoho. What time period is that? Is that----
    Mr. Silverman. So that is since the conflict began in 
2011----
    Mr. Yoho. Okay.
    Mr. Silverman [continuing]. And it refers to assistance 
inside Syria for displaced people and also to all of the 
neighbors that have received refugees.
    Mr. Yoho. All right. And Mr. Silverman, you were stating in 
your written statement that you stated the need to implement 
U.N. SCR 1701 which calls for the disarmament of all armed 
groups in Lebanon.
    What is being done to do that and who is monitoring that? 
How is it being done and what have we accomplished as far as 
doing that?
    Mr. Silverman. Congressman, I think we can all agree here 
that not enough has been done, obviously, because Hezbollah has 
not been disarmed and that is why we are trying to build up 
both the Lebanese political system and its one national 
institution, the only party that should carry arms in Lebanon, 
which is the Lebanese Armed Forces.
    But and this is brought up all the time. We use this 
international support group as an international institution to 
continue to push for the implementation of 1701. Obviously, 
sir, we are not there yet. But we----
    Mr. Yoho. Okay. So in your opinion would you say the U.N. 
resolution to do that has not been very effective as of today?
    Mr. Silverman. It has not been implemented, obviously, and 
the Lebanese people I think want it implemented but it has not 
been implemented.
    Mr. Yoho. Dr. Spence, do you want to weigh in on that?
    Mr. Spence. I would add to what Mr. Silverman said.
    Mr. Yoho. Okay. Well, that comes down to then the next 
question. What is the lifeblood of the substance that keeps 
Hezbollah a force in having so much power? Is it--where does 
the main source of their revenues come from?
    Mr. Silverman. Well, I think Iranian support is very 
important. You know, we have--in our various designations of 
Hezbollah we have talked about their other efforts around the 
world to garner funds and in some cases through criminal 
enterprises.
    We have talked about that they have benefitted from 
narcotics trafficking over the years. So they do that. Let me 
also say outside of the funds, you know, that, for example, 
Hezbollah talks about its involvement in Syria is, for example, 
protecting Shi'a heritage. Of course, that is not the----
    Mr. Yoho. Right.
    Mr. Silverman [continuing]. That is not what they are doing 
in Syria at all and I think people realize that.
    Mr. Yoho. Okay. Let me move on to this. What would be the 
best way to stop or neuter that support for Hezbollah? We have 
tried sanctions on Iran and what I have seen is Hezbollah has 
grown. They have extended and gone over to the--you know, into 
this hemisphere.
    They are spreading throughout South America. There are 
reports of them coming up through Central America, even 
infiltrating into America. With these tough sanctions on Iran 
they are still growing. What else can we do?
    Mr. Silverman. Well, I don't think we should just dismiss 
the fact that or dismiss an effort with Iran to get them to 
stop supporting Hezbollah. But we also need, as Deputy 
Assistant Secretary Spence mentioned, a full effort by all of 
our allies and very close coordination with each other all 
around the world to get at the financial--to get at the 
financial networks.
    Mr. Yoho. Okay. Dr. Spence, you were talking about the end 
use monitoring of--I guess it is the armament they have. Who is 
doing that, how often is it done and what are the metrics to 
determine the effectiveness of that? Start with who is the one 
doing that.
    Mr. Spence. Sure. The--within--for the end use monitoring 
it is with our country team within Lebanon who looks at what 
they are actually doing. As far as a little more on the metrics 
and how we do it and some more details, I think it is a very 
important question that we owe you a level of detail. If it is 
okay with you I would like to come back with you for--with some 
more detail----
    Mr. Yoho. I would like that if you could do that because--
--
    Mr. Spence [continuing]. As to what this is so we can lay 
it out in a little more precise detail.
    Mr. Yoho. I think what I have here is we have given them 
$180 million worth of equipment recently in weaponry. How do we 
know, like Congressman Weber brought up, that it is staying 
where it is supposed to, it is being used for what it is 
supposed to be used?
    And I think that is something that is very important that 
we follow up on that. If Iran is working against the peace and 
stability in Lebanon, what is the Middle East or the Islamic 
world doing to pressure Iran to stop to help promote peace in 
that area so that we can back down, you know, and people can 
live their life the way they want to over there? What is that 
whole Middle Eastern population doing to put pressure on Iran 
and say stop?
    Mr. Spence. I think doing that is extremely important and I 
think what we made clear is Iran is having destabilizing 
activities around the region. You know, it is not just Iran's 
nuclear program. It is their support of groups like Hezbollah 
and terrorist groups.
    So what we try to do is make sure that when groups like 
Hezbollah claim to speak for the Lebanese people and claim to 
speak for all of Lebanon and provide security, that is not 
true.
    That is why we want to strengthen groups like the Lebanon 
forces that actually can provide for the security and stability 
of Lebanon and I think that is why it is important. Any 
strategy that we take cannot just be a United States unilateral 
strategy.
    It is working closely with those partners who are in the 
region who are closest and are most directly impacted by it.
    Mr. Yoho. My time is out. I yield back.
    Mr. Meadows. I thank the gentleman from Florida and the 
chair recognizes the gentleman from Georgia, Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman. I appreciate it.
    I want to take just a little different tack but I think it 
is within the purview of what we are doing here. The current 
Israeli-Palestinian peace negotiations remind me of the 
Israeli-Lebanon relationship. Lebanon receives something for 
giving up nothing.
    In 2000, the Israeli military withdrew from southern 
Lebanon. This led to an entrenchment of Islamist militants who 
hit Israelis' population centers and remain capable of doing 
so. In order to build good will within the region, time and 
time again Israel has ceded land under its control in exchange 
for little to nothing.
    I feel the same is occurring with the current peace 
negotiations between Israel and Palestinian Authority. Over 10 
months of negotiations and Israel has released three rounds of 
prisoners and the Palestinian Authority has gone to the U.N. 
and received non-member state status.
    As with Lebanon, Israel is giving up real concrete 
concessions while other negotiating body is asking to give up 
little. Earlier this year, it appears Secretary Kerry implied 
that if Israel failed in its negotiations with the Palestinian 
Authority, Israel could suffer an economic boycott.
    What I want to know what other concrete concessions is 
Secretary Kerry prepared to propose to the Palestinian 
Authority in order to make the negotiations balanced. Mr. 
Silverman.
    Mr. Silverman. Thank you, Congressman. First, on your point 
about Secretary Kerry's remarks, and we said this at the time, 
that we really thought that they were taken very much out of 
context because actually what the Secretary was saying and 
restating was our absolutely opposition to what they call kind 
of the delegitimization of Israel around the world including 
boycotts and other resolutions, and we are totally opposed to 
any kind of boycotting or steps against Israel.
    Mr. Collins. In some ways could the Secretary not be also 
delegitimizing Israel in the sense of the way we always seem to 
ask Israel for the concessions, they give the concessions and 
we get nothing in return? Are we not being an enabler at that 
point?
    Mr. Silverman. I don't--with respect to, Congressman, I 
don't agree that we have been an enabler. This is a negotiation 
between two parties and I will say that we were disappointed, 
obviously, most recently by the Palestinian signing of these 
applications to join conventions.
    I have to say also we expressed disappointment on both 
sides too and that gets at the settlements issue. But I think 
we are--in effect our efforts at the peace process are not only 
to have a result that is a Palestinian state alongside a secure 
Israeli state but also that the Palestinians are obviously part 
of a process that we think in the end will help secure Israel 
further. We believe that.
    Mr. Collins. Well, I think--look, expressing disappointment 
and also seeing one side continually and, in my opinion, and 
others give is really a hollow gesture in a sense.
    Are they--and very quickly because I--but you can answer 
this. I want to--will any concessions be asked of the 
Palestinian Authority in the framework document that is 
designed to bring up the final negotiations to the peace? Are 
they being asked to do anything here?
    Mr. Silverman. Well, I think, Congressman, that they are 
being asked to come to an agreement with Israel on land. 
Obviously, they are being asked to come to an agreement on the 
status of refugees and the so-called, you know, and the right 
of return.
    They are being asked on a whole series of issues that they 
are going to have to be, you know, difficult decisions and 
compromises made as part of this process. Let me just add, I 
mean, that this is not in the end a U.S. solution. These are 
negotiations between the parties in which they are still 
engaged literally as we speak there on the ground and they will 
either come to an agreement or they won't come to a mutual 
agreement.
    Mr. Collins. That is understood and a given. I think the 
issue here is the U.S.' role and are we taking a very strong 
ally in Israel and working with the Palestinians. Are we 
basically saying Israel, you are going to have to do and the 
other is not. That is the problem I am having at this point. It 
seems like we are taking an ally and making them give and 
really not giving the Palestinian side.
    Mr. Silverman. Congressman, I think throughout this process 
and over many years we have been extremely sensitive to in 
trying to promote the security of Israel including through 
these negotiations, in addition to all the other bilateral 
steps we take for Israel.
    Mr. Collins. Okay, I will accept that. At this point, I do 
want to change questions. You made a part and you said earlier 
the administration doing--you know, I want to know what the 
administration is doing in talks with Tehran to stop the 
Iranian weapons supply and, you know, to Hezbollah and if it is 
not, addressing it.
    You said that you had expressed it but that is not really 
part of the nuclear talks and my question is is why not because 
many of us actually on this committee and others believe that 
the plan that was put in place actually encouraged them to 
continue their work in Syria while, you know, sort of focusing 
attention to the nuclear conflict. Why should this not be a 
part?
    Mr. Silverman. Congressman, thank you. I think that we have 
made absolutely crystal clear to Iran, to Tehran our opposition 
and our--and that we want to see Iran's sponsorship of 
terrorism and its active efforts to destabilize the region 
ended. So I think that has been made crystal clear to the 
leadership in Iran for many years.
    This negotiation is focused on trying to get this nuclear 
agreement. But let me be clear that that is one part of the 
Iran issue for us, only one part of the Iran issue for us, and 
that all of the other behavior that we have seen, the policies 
and the actions that we have seen from Iran that are 
unacceptable remain on the table and we will be pressing and we 
are pressing these issues.
    Mr. Collins. Well, as one member who believes that 
sanctions work not only in Iran, it was working and should have 
been left in--Hezbollah is the same way. We have got to do 
more, the European allies. As someone also in the military this 
is a nonmilitary step that we can do to actually control this.
    My time is out. Madam Chair, I will yield back.
    Ms. Ros-Lehtinen. Thank you very much. Thank you. Mr. 
Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman, and thank you to 
our panel for being here. Mr. Silverman, how would you describe 
the U.S. interest in Lebanon? What is our interest?
    Mr. Silverman. Most briefly, we have an interest, 
Congressman, in the stability, security and sovereignty of a 
democratic Lebanon with an open economy.
    It is--obviously geographically it is absolutely critical 
to the larger stability in the Levant and the region, and a 
pluralistic democracy, I should add, because in some senses 
Lebanon is unique in the region.
    Mr. Connolly. Do you think that describes Lebanon today?
    Mr. Silverman. I think that there are threats to Lebanon's 
stability. There are threats to its security and----
    Mr. Connolly. Yes, but would you see it, for example, as an 
open and pluralistic democratic----
    Mr. Silverman. I think that it has a, obviously, a 
pluralistic population but I don't think the Lebanese would be 
satisfied with it as a democracy or as a--you know, we have had 
a long time here without the Parliament in session, for 
example. So that is clear to the Lebanese people too that they 
want a more active functioning democracy.
    Mr. Connolly. How would you describe the role of UNIFIL in 
trying to bolster that stability and security you talk about?
    Mr. Silverman. I think that, obviously, we are supportive 
of UNIFIL and the, roughly, 11,000 forces that it has there. I 
think that it has really helped prevent a situation, imperfect 
as it is, and we still have border incidents, obviously.
    But I think the situation would be much worse without 
UNIFIL. And let me add that UNIFIL does what it does in very 
close cooperation with the LAF and the LAF has benefitted from 
training with UNIFIL.
    So, again, we are not talking about a perfect situation but 
when we think about the security of Israel and we think about 
stability on the border, while it is not perfect it is better 
than it would be otherwise if UNIFIL had not been there.
    Mr. Connolly. Dr. Spence, how would you describe the 
coherence of the Lebanese military and its capability? And let 
me just say I have been involved with Lebanon for 30-something 
years and we have had several episodes where we thought we put 
back together the Lebanese military only to see it splinter 
along sectional lines, very tragically.
    So what is different today, from your point of view, and do 
you think U.S. military assistance has made any kind of 
appreciable difference? I know you get paid to say of course it 
has so we will stipulate you believe, of course, it has. But 
qualitatively when you look at it, is it producing the results 
we hoped for?
    Mr. Spence. Okay. I actually feel that way as well so it 
works out well. Look, I think that as you know well our goal 
for the Lebanese Armed Forces--it has been our goal for a while 
and it is our goal right now is to make sure that it continues 
to be the sole legitimate force within Lebanon to provide for 
the security and stability of the Lebanese people.
    You know, what that does then it makes sure that the LAF is 
a lot stronger than Hezbollah and also that it can defend the 
threats to the state of Lebanon, which are enormous and are 
only increasing.
    Right now, I feel like the U.S. assistance has made a 
concrete and important role and there are a few specific things 
that I would say now that at least that I think about because 
this is an issue that really keeps me up at night about what we 
can do to increase this support more and help make the LAF to 
be more effective.
    For example, there are two things from last week that I 
would point out. Just last week, the Lebanese Armed Forces 
arrested 14 Syrians at a border checkpoint. Now, these Syrians 
were trying to come in to Lebanon.
    They were carrying fake Lebanese IDs as well as military 
equipment, and as you know well, Congressman, the issue of the 
border is hugely important. So the more we can do to help them 
address that--the border is long, there is a lot more to go. 
That is an important step.
    The second thing that also happened last week is the 
Lebanese Armed Forces captured a car bomb that was trying to 
pass through a security checkpoint in the Bekaa Valley. Again, 
these car bombs, when they are able to flow through freely, 
cause enormous destruction and terror within Lebanon and there 
is more that we are trying to do. So----
    Mr. Connolly. Dr. Spence, thank you for those examples. I 
have 35 seconds and the--oh, all right. Thank you, Madam 
Chairman.
    What about the coherence issue though? I mean, is the 
Lebanese Armed Forces or are the Lebanese Armed Forces a 
coherent whole in contra distinction to past decades when they 
fell apart along sectional lines?
    Mr. Spence. Right now as far as the trend lines go they are 
facing enormous pressure. But I think our assessment is that 
the coherence is working a positive direction. We think that 
part of it is due to the leadership and bravery of the leaders 
of Lebanese Armed Forces and that is where credit is due.
    But also we think along the way our partnerships and 
training have been able to help reinforce what they are doing. 
That is our IMET programs. That is our FMF and, frankly, that 
is the senior and ongoing organizational contacts that we have 
between the United States military and the Lebanese Armed 
Forces.
    Mr. Connolly. And if the chair will allow just one 
ancillary question, with respect to this subject, Saudi Arabia 
has committed $3 billion--that is a lot--in military aid to a 
small country, Lebanon.
    Can you just tell us how does that augment or contradict 
what we are trying to achieve in Lebanon in terms of building 
up a coherent national armed force to protect the sovereignty 
of the country, or does it?
    Mr. Spence. I think on that and that grant was announced 
actually before I was in Lebanon in January so it is something 
we are focused on. First of all, I would say it does not 
decrease the need for United States assistance to the Lebanese 
Armed Forces.
    The needs are significant and there is really no substitute 
for the power and quality of American military training around 
the world.
    Mr. Connolly. But does the $3 billion--is it the United 
States' point of view that this is a helpful augmentation of 
what we have been trying to do or is it sort of a sideshow that 
we are going to have to now manage?
    Mr. Spence. So we think that more support for the Lebanese 
Armed Forces is better and it depends on how it is managed, and 
that is the reason that Larry and I actually are going to 
France later this month to have discussions with the French of 
exactly how it will be used and how do we make sure that we are 
all pulling on the same oar with respect to the assistance.
    Mr. Connolly. Mr. Silverman.
    Mr. Silverman. May I just add, as I mentioned earlier in 
the hearing on Thursday I will be in Rome with this 
international support group and that is our message. The 
assistance has to be complementary to it. It is what the 
Lebanese Armed Forces needs. It is not what people want to give 
them.
    Mr. Connolly. Yes. Thank you both very much, and Madam 
Chairman, thank you for your indulgence.
    Ms. Ros-Lehtinen. Thank you, Mr. Connolly. Excellent 
questions. And we are so grateful for your presence. Thank you 
for your testimony, and with that the subcommittee is 
adjourned.
    Thank you, gentlemen.
    [Whereupon, at 11:41 a.m. the committee was adjourned.]
                                     

                                     


                            A P P E N D I X

                              ----------                              


                    Material Submitted for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
